                      Closeout of M93010001

This case was brouqht to OIG on January 5 . 199
   I,  a program ofIficer in;(___


It is based on an anonvmous lett
allegations again                      fJ the
                                           - 7
at the university
The allegations are that the subject steals his "research aims"
from others and takes credit for the contributions of others to his
research projects. He allegedly regularly breaks promises he makes
to these collaborators. Further, he plans to use the funds from
his pending proposal to NSF for a year's sabbatical in Europe.
The description given of the subject's actions is too vague to
allow them to be investigated. Since the letter is anonymous, it
is not possible to get more information from the complainant. Much
of this alleged misbehavior, in any case, would not fall under
misconduct in science. Moreover, since the subject has never had            t
an NSF grant, much of the activity complained about would probably          I
not be within NSF1s jurisdiction.                                              I

                                                                      @
                                                                      ,-
The anonymous letter implies that the subject has had NIH support.    ,i
                                                                           d'


OIG determined that the Public Health Service has made no finding                  I

of misconduct in science against him. Hence NSF has no basis for                   I

taking action against him for any misconduct he may have committed
with PHs funds.
                                                                           .
                                                                           I

The subject has a pending NSF proposal. However, since it requests
no salary for him, it is unlikely that he plans to use any funding         r~

he obtains for a sabbatical.
OIG concludes that there is no misconduct in science issue or other
serious issue involving NSF in this case, and therefore the matter
can be closed. The case will be offered to the Public Health
Service for consideration under its misconduct in science policy.




March 3 0 ,1993


Copy: Inspector General
      AIG-Oversight
      IY-( (4
            '
